                                                             U.S. Department of Justice

                                                             Ronald C. Machen Jr.
                                                             United States Attorney for the
                                                             District of Columbia

                                                             Judiciary Center
                                                             555 Fourth St. N.W.
                                                             Washington, D.C. 20530

                                   PRESS RELEASE

FOR IMMEDIATE RELEASE                                For Information Contact:
Tuesday, May 8, 2012                                 Public Affairs
                                                     (202) 252-6933
                                                     http://www.justice.gov/usao/dc/index.html



            Former Contractor for Amtrak Pleads Guilty
  to Theft Charge for Using Business Rail Pass for Personal Travel
                - Defendant Agrees to Pay More Than $8,500 in Restitution -

    WASHINGTON - Darius Thevathasan, 24, of Richmond, Va., has pled guilty to a charge of
second-degree theft for repeatedly using an Amtrak business pass for personal travel, U.S.
Attorney Ronald C. Machen Jr. and Amtrak Inspector General Theodore (Ted) Alves announced
today.

    Thevathasan pled guilty on April 25, 2012, in the Superior Court of the District of
Columbia, and was sentenced that day by the Honorable Heidi M. Pasichow. The judge placed
Thevathasan on six months of probation and ordered him to pay $8,548 in restitution.

     According to a proffer of facts, signed by the defendant as well as the government, during
parts of 2010 and 2011, Thevathasan was a contractor performing work for Amtrak. In
connection with his work, he was issued an Amtrak business rail pass for official business.

     However, Thevathasan used the business rail pass to purchase numerous personal trips.
Even after surrendering the pass in June 2011, he continued to purchase a large number of
Amtrak tickets for non-official use by using information associated with the business rail pass.
All told, from October 2010 to December 2011, the actions cost Amtrak $8,548.

     In announcing the plea and sentencing, U.S. Attorney Machen and Inspector General Alves
praised the work of Special Agent Eugene Simms, of the Amtrak Office of Inspector General,
who investigated the case. They also commended the efforts of Assistant U.S. Attorney
Benjamin L. Eisman, who prosecuted the case.

12-164

                                               ###
